Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




             MEDICAID
       Post Payment Safeguards




                   JUNE GIBBS BROWN
                    Inspector General

                        JULY 2000
                      OEI-05-99-00072
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago Regional Office prepared this report under the direction of William C. Moran,
Regional Inspector General and Natalie A. Coen, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

John M. Traczyk, Project Leader                         Jennifer Antico, Program Specialist




        To obtain copies of this report, please call the Chicago Regional Office at 312-353-4124.
          Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei/
                          EXECUTIVE                       SUMMARY

PURPOSE

         This is the last of three reports describing Medicaid program safeguards. This report
         discusses post payment safeguards. The first report discusses proactive safeguards and
         the second describes claim processing safeguards. This report is intended to provide
         information about and increase awareness of Medicaid post payment safeguards. Post
         payment safeguards ensure that claims have been properly processed and adjudicated.

POST PAYMENT SAFEGUARDS

         Remittance Notices furnish providers with information about services billed to Medicaid

         using their name and provider number. Medicaid providers are asked to report any

         discrepancies. Unfortunately, remittance notices are sometimes diverted to billing

         companies or persons unknown to the provider.

         Explanation of Benefits are sent to select Medicaid patients. They provide patients with

         information about providers who billed Medicaid for services provided to them. Patients

         are asked to verify that they have used or received the services billed to Medicaid.

         Post Payment Reviews/Audits and Sampling are used to measure claim payment

         accuracy, identify incorrectly paid claims, identify problematic policies and procedures and

         provide feedback on the effectiveness of proactive and claims processing safeguards. 

         Allegations of Fraud and Abuse are handled differently by each State we visited. 

         Information is not uniformly captured; therefore, comparing data on Medicaid fraud and

         abuse efforts is difficult. 

         Payment Error Rates are used by some States to identify policy vulnerabilities and claims

         processing vulnerabilities. 


OPPORTUNITIES FOR IMPROVEMENT

         Based on our prior studies and information gathered during this study, we encourage
         States to consider the following opportunities for improving program safeguards:

         <	
         <         Improve provider remittance notice procedures. Current procedures do not
                   always ensure that providers receive remittance notices. Some States believe that
                   some remittance notices are diverted to third parties and never seen by the
                   provider whose billing number was used to generate the claim.

         <	
         <         Improve provider education. Every provider should understand that they will be
                   held financially (and, in some cases, criminally and civilly) liable for any Medicaid
                   program financial losses stemming from misuse of their provider number.

Post Payment Safeguards                              1                                     OEI-05-99-00072
         <	        Use valid sampling techniques to improve post payment audits. Using valid
                   sampling enables States to accurately project the total payment error and
                   overpayments made to a provider.

         <	        Ensure that some providers selected for post payment review are chosen at
                   random. Random selection can have a deterrent effect on fraudulent and abusive
                   billing and enables States to identify problematic providers who have circumvented
                   their program safeguards.

         <	        Document educational contacts stemming from post payment audits.
                   Recording education contacts helps establish that a provider have been made
                   aware of unacceptable billing practices.

         <	        Improve their surveillance of providers found to have billing problems.
                   States should verify that a provider has corrected unacceptable billing practices
                   and has not simply found a way to circumvent Medicaid safeguards.

         <	        Work with Health Care Financing Administration (HCFA) to establish
                   uniform definitions for audits, edits, reviews, claim counts, rejects, etc..
                   Clarifying these terms should allow the States and HCFA to compare and contrast
                   efforts in safeguarding Medicaid.

         <	
         <         Improve the handling of fraud and abuse allegations. Their should be written
                   procedures for uniform handling of suspected fraud and abuse situations identified
                   by Medicaid employees and subcontractor employees.

         <	
         <         Develop training to help their employees and subcontractors identify
                   potential fraud and abuse issues. Training would help ensure proper disposition
                   and handling of allegations and help ensure proper referral of cases for in depth
                   investigation.

         <	        Collect better data on payment error rates. Error rate data can be used to
                   identify and address problematic providers, poor policies and vulnerable
                   procedures.

         We intend to do additional in depth studies on post payment safeguards used by States.


AGENCY COMMENTS

The HCFA believes that the opportunities for improvement described in this report provide
valuable information that will be shared with the State Medicaid programs.


Post Payment Safeguards                              2                                     OEI-05-99-00072
                      TABLE                         OF               CONTENTS




                                                                                                                         PAGE

EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


POST PAYMENT SAFEGUARDS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


         Remittance Notices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


         Explanation of Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


         Post Payment Reviews/Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                Sampling Methodologies
                Provider Education
                Verification of Compliance

         Allegations of Fraud and Abuse . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


         Payment Error Rates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


OPPORTUNITIES FOR IMPROVEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15





Post Payment Safeguards                                         3                                                 OEI-05-99-00072
                              INTRODUCTION


PURPOSE

         To provide information about and increase awareness of Medicaid post payment
         safeguards.


BACKGROUND

         Medicaid is a health insurance program for certain low income and needy people. Within
         Federal limits, each State decides eligibility, benefit coverage, administrative practices,
         reimbursement and operational resource requirements. About 70 cents of every Medicaid
         dollar goes to institutional providers (hospitals, nursing homes). Thirty cents pays for
         non-institutional services (physician services, laboratory and radiology). Federal law
         requires States to pay for services provided by certain institutional providers and non-
         institutional providers. State may elect to offer additional services such as dental care,
         podiatry care and prescription drugs just to name a few.

         The Health Care Financing Administration (HCFA) is responsible for administering
         Federal matching funds to the States and for legislation and regulations affecting Title
         XIX (commonly referred to as the Medicaid program). The HCFA also provides
         guidelines, technical assistance and periodic assessments of State programs. More than
         36 million recipients are enrolled in Medicaid. In 1991, 90 percent of these recipients
         were enrolled in fee-for-service (FFS) programs. By 1998, the number of recipients in
         FFS had decreased to 46 percent and enrollment in managed care plans increased to nearly
         54 percent. Nearly $169 billion was spent by the Federal Government and the States on
         Medicaid benefits in Fiscal Year 1998.

         States are required by legislation to make every effort to eliminate waste and illegitimate
         program expenditures. States are required to develop payment safeguards designed to
         protect their Medicaid funds from unscrupulous and fraudulent providers.




Post Payment Safeguards                            4                                     OEI-05-99-00072
METHODOLOGY

         We visited or interviewed over the telephone State agencies responsible for administering
         the Medicaid program in the following eight States:

                   California          Florida                Illinois
                   Louisiana           Maryland               Oregon
                   Pennsylvania        Texas

         These States were selected for site visits because they account for nearly half of all
         Medicaid expenditures. They were also chosen for their geographic location. Our site
         visits were conducted during the spring of 1999. During our visits, we discussed program
         safeguards used by each State’s Medicaid program. We spoke to State Agency officials
         and, when appropriate, to State subcontractors.

         We did not discuss payment safeguards used by managed care organizations and State
         pharmacy programs. Our discussions focused on Medicaid fee-for-service program
         safeguards. We have not attempted to assess the effectiveness of each safeguard.

         This report is the last of three reports on Medicaid program safeguards. The first report
         discusses proactive safeguards, those measures taken to prevent fraud, abuse and waste
         before a claims is ever submitted for payment. The second discusses pre-payment/claim
         processing safeguards.

         The primary purpose of these reports was to compile a catalog of program safeguards
         used by State Medicaid programs. Every effort was made to prepare a comprehensive and
         complete list. Some disagreement as to what constitutes a program safeguard may exist
         and some safeguards may have been overlooked. Fragmentation of responsibility in many
         State Medicaid programs often makes it difficult to reach all of the people responsible for
         Medicaid program safeguards. Consequently, States, their subcontractors and others may
         have information about other safeguard measures not mentioned in this report.




Post Payment Safeguards                           5                                     OEI-05-99-00072
       POST                PAYMENT                          SAFEGUARDS

         Unlike other safeguards used by State Medicaid programs, post payment safeguards do
         not prevent patients from receiving excessive or medically unneeded services and they do
         not prevent erroneous payments from being made to providers. Often referred to as the
         pay and then chase method, post payment safeguards examine the accuracy of payments
         that have already been made to providers. Providers who have been paid incorrectly are
         notified and asked to refund the identified overpayment(s). Providers with egregious
         claims activity may be referred for further investigation.


REMITTANCE NOTICES

         State Medicaid program policies stipulate that payments can only be made to the actual
         provider of medical care and services. Medicaid payments are made in the name of the
         provider and sent to a ‘pay-to-address’ designated by the provider. Payments can be
         directed to a billing agency, but the actual payment is made out in the name of the
         provider.

         Remittance notices play a key role in State post payment safeguards. All of the States we
         visited send remittance notices to providers. Remittance notices furnish providers with
         information about services billed to Medicaid using their provider number. They provide
         specific information about patients, services billed, adjudication decisions and payments.
         Providers, who review their remittance notices, should detect additions, deletions and
         modifications of claims submitted to Medicaid using their provider number.

         Remittance notices, like payments, are often directed to someone other than the provider
         of care shown on the claim submitted for Medicaid reimbursement. Several States told us
         that they have found cases where providers never saw the payments and remittance
         notices ostensibly issued to them. Medicaid payments and remittance notices have been
         diverted to billing companies or addresses unknown to the provider whose billing number
         was used to generate claims.

         State Medicaid programs cannot identify billing agents and the providers who use their
         services. Seven of the eight States in our sample do not contact providers to verify that
         they have actually authorized a billing agent/agency, clinic or other health provider to
         submit claims to Medicaid on their behalf. Florida surveyed physicians and asked them to
         verify their clinic affiliations. Analysis of the responses resulted in the termination of more
         than 100 clinics and physicians for irregular billing practices and projected savings of at
         least $15 million.



Post Payment Safeguards                             6                                      OEI-05-99-00072
EXPLANATION OF BENEFITS

         Another post payment safeguard used by States is the Explanation of Benefits (EOBs).
         Unlike remittance notices, EOBs are sent to select Medicaid patients rather than to
         providers. The EOBs provide patients with information about providers who billed
         Medicaid for services ostensibly provided to them. Medicaid EOBs identify providers and
         provide information about the nature of services that were billed to Medicaid. Medicaid
         patients are asked to verify that they have used the services of the provider and received
         the services billed to Medicaid. Pennsylvania and Illinois follow up on all undeliverable
         EOBs to determine why they were returned.

         Not all Medicaid patients receive EOBs. States are only required to send EOBs to a
         random sample of patients. Some States target patients who received specific services
         (e.g., electrocardiograms, x-rays) or received services from a particular type of provider
         (e.g., podiatrist, dentist). Other States send EOBs to all recipients when targeting specific
         services or providers. In all cases, patients are asked to review the EOBs and notify the
         State Medicaid program of any discrepancies.

         Several States felt that EOBs were not an effective program safeguard. States mentioned
         that patients often turn to providers if they have any questions or concerns about the items
         on their EOB. They also mentioned that many patients cannot read or understand the
         EOB and that the overall response rate is low. Nonetheless, all eight States in our sample
         conduct reviews to determine if a potential problem exists whenever a patient notifies
         them of a suspected billing discrepancy.


POST PAYMENT REVIEWS/AUDITS

         State Medicaid programs are required to conduct post payment reviews. In a perfect
         system, findings from post payment reviews would help State Medicaid programs:

                   <      measure claim payment accuracy,
                   <      identify incorrectly paid claims,
                   <      identify problematic policies and procedures,
                   <      identify providers who defraud or abuse the system,
                   <      respond to problem areas and to formulate new policies quickly,
                   <      provide feedback on the effectiveness of safeguards in the claims
                          processing system, and,
                   <      provide feedback to those persons responsible for proactive safeguards.

         States use post payment audits to identify problematic providers. If problems are confined
         to a small number of providers, many Medicaid programs flag the provider and place them
         on prepayment review. If the problems are wide spread, Illinois and Louisiana believe
         that redesigning program policies and procedures is more cost effective than monitoring
         each provider.

Post Payment Safeguards                            7                                     OEI-05-99-00072
         While States use different criteria for selecting providers for post payment review, most
         select providers whose practice differs substantially from that of their peers. These
         “outliers” have been the primary focus of most State post payment efforts. Most States
         compare providers by specialty and location. They review data on use of specific
         diagnostic codes, procedures, numbers of patients, prescriptions and other criteria when
         deciding which providers to review. Florida, Illinois, Louisiana and Texas also review
         providers whose practice patterns are near the norm for their peer group.

         All of the States we visited rely on their Survey and Utilization Review Subsystem
         (S/URs) to target some, or all, providers for post payment audit.1 The S/URs is an
         integral part of each States Medicaid safeguards. Some States claim that the parameters
         built into S/URs are not easily changed and the system is only capable of producing
         standardized reports and, in itself, does not provide adequate tools to address today’s
         sophisticated fraud and abuse schemes. Despite such feelings about S/URs, six of the
         States we visited do not appear ready to change to neuro networks and other detection
         systems.

         Some States have downloaded claim information to personal computers. They are using
         personal computer based S/URs to do ad hoc queries to refine and enhance their ability to
         identify providers and areas for more in-depth post payment study. Some States have
         enhanced their personal computer capabilities by combining S/URs with decision support
         systems. These programs allow States more flexibility in analyzing claim data. This in
         turn helps them to better focus their post payment reviews.

         Each State Medicaid program conducts their post payment reviews/audits differently.
         Some States only audit 10 claims per provider, some focus on specific procedures billed to
         Medicaid, others use random sampling to produce results that can be projected to the
         universe and a few sample all claims, or target certain procedures for review.

         Onsite visits to providers selected for post payment review/audit are rare. Most requests
         for needed audit information are handled by mail. In most States, onsite visits to providers
         are made only when the State determines that a serious problem may exist. When States
         do make onsite visits, they often notify the provider in advance as to which patient records
         they will review during their visit.

         Of our eight States, Louisiana is the only one that routinely makes unannounced visits to
         providers selected for post payment review. During the onsite visit they obtain medical
         records and other documentation needed to determine whether the claim was paid
         correctly. Louisiana conducts nearly all of its post payment reviews by going onsite to


         1
                The S/URs is a sub component of the Medicaid Management Information System (MMIS). The
         S/URs examines paid claims and produces pre-formatted management reports that identify billing patterns
         which may be problematic.

Post Payment Safeguards                                8                                         OEI-05-99-00072
         review and copy patient records. Providers are not notified as to which records will be
         reviewed. Louisiana believes that their onsite visits help them to identify bogus providers
         and deters providers from creating or modifying records required for post payment
         reviews.

         Post Payment Sampling Methodology

         Three States we visited do not use sampling methods to select claims for post payment
         review/audit. These States claim that projections based on sampling do not hold up to
         court challenges. Consequently, these States do not extrapolate the results of their post
         payment audits to the universe of claims. Providers are only asked to repay Medicaid the
         specific amounts identified during post payment review as incorrectly paid. This often
         results in a mere slap on the wrist because the number of claims reviewed during a post
         payment audit can be very small involving as few as 10 claims.

         Five of our States use random sampling techniques to project overpayments to the
         universe of claims submitted. Some select a random sample of claims, and others use a
         random sample of patients seen by a specific provider. Others select a sample of specific
         procedure codes, diagnostic codes, etc. These States follow accepted sampling techniques
         and believe that legal challenges to their projects based on sampling will be upheld by the
         courts.

         Provider Education

         An integral part of the post payment review process involves provider notification as to
         the results of the post payment review. State notices to providers contain information
         about the outcome of the Medicaid audit, identify incorrectly paid services and provide
         information about the underlying laws, regulations and policies that govern payment.
         States also advise providers of expected changes in their Medicaid billings that would
         ensure future compliance.

         All of the States we visited make educational contacts with providers whose claims were
         found to have been incorrectly paid. States conduct their educational contacts at the
         provider’s office, over the telephone or through the mail. Six of the States we visited
         claim that they document the content of their educational contacts by sending a letter to
         the provider. Of the eight States, only Maryland mentioned that they save educational
         contact letters in the provider’s file. They use these letters to establish that providers were
         contacted about unacceptable billing practices and that they were given information on
         how to correct their aberrant billing.

         Saving educational contact letters in the provider’s file enables Medicaid to determine how
         often they have asked the provider to correct their billing practices. They are also useful
         in showing that a provider knew the law, regulations and policies but changed their
         behavior to avoid detection. A State Medicaid program may need to use this
         documentation of provider contacts to justify a referral for criminal or civil investigation
         or administrative removal of the provider from their program.

Post Payment Safeguards                            9                                       OEI-05-99-00072
         Verification of Compliance

         Three of the eight States we visited, verify that providers have changed their billing
         behavior following notification that their past billing practices were unacceptable. Some
         States simply examine information about the number of claims that edit for the specific
         problem. Others not only examine edit counts but also conduct another claim audit to
         ensure that the past problems have been corrected and to ensure that the provider has not
         simply changed their billing to avoid detection.


ALLEGATIONS OF FRAUD AND ABUSE

         States receive allegations of fraud and abuse from a number of internal and external
         sources. Each of the States in our sample handles these allegations differently. One State
         only records cases accepted for further investigation by its internal program integrity unit.
         Consequently, the State has no records that would indicate the total fraud and abuse
         workload addressed by its employees. States that do keep records on all allegations
         appear to be in a better position to identify providers with multiple allegations. These
         States are also in a better position to measure their fraud and abuse workload and the
         disposition of that workload.

         Processes used to control and resolve allegations of fraud and abuse appear weak. Some
         States have not done a good job in educating their employees concerning fraud and abuse
         and the procedures for handling such complaints. States appear to be out of the loop
         when it comes to fraud and abuse training and establishing criteria to ensure proper
         handling of such allegations. At the 1999 National Health Care Anti-fraud and Abuse
         conference, only 10 States sent representatives. Most State attendees were from State
         agencies other than Medicaid. Only three States sent Medicaid personnel to the
         conference to learn about emerging fraud schemes and safeguards to protect their
         programs from such schemes.


PAYMENT ERROR RATES

         Payment error rates include anything from inadvertent mistakes to outright fraud. We
         know of no studies that have quantified what portion of the payment error rate is
         attributable to fraud. Some States have, however, estimated provider billings for services
         that were insufficiently documented, medically unnecessary, incorrectly coded or non-
         covered. The prevalence of fraud in the State Medicaid programs remains unknown.




Post Payment Safeguards                           10                                      OEI-05-99-00072
         Three of the eight States we contacted had attempted to determine their Medicaid
         payment error rate. All used a State Agency, independent of the Medicaid program, to
         estimate the overall claim payment error rate. Initial estimates of payment error ran up to
         15 percent, considerably higher than final estimates which fell in the 3 to 5 percent range.

         States that have attempted to quantify their payment error rate do so by selecting a
         weighted sample using provider type and claims volume. Their sample was drawn from
         the universe of fee-for-service providers and does not include managed care claims,
         pharmaceutical claims or long-term care claims.

         The remaining States have not conducted an independent audit of their Medicaid claims to
         determine payment accuracy. They rely on post payment audits conducted by their claims
         processing department, program integrity unit or subcontractor to determine payment
         error rates. In one State, the State comptroller uses statistical samples to determine
         whether providers (pharmacies, managed care organizations and long- term care facilities)
         have been correctly paid. The comptroller does not assess the medical necessity of
         services provided but merely determines whether safeguards in the system work as
         intended.




Post Payment Safeguards                           11                                     OEI-05-99-00072
                           OPPORTUNITIES  FOR
                              IMPROVEMENT



         Post payment safeguards examine the accuracy of claims that have already been processed.
         These safeguards have a sentinel effect and help deter provider fraud and abuse.
         Comparing data may result in an inaccurate picture of a State’s efforts to decrease claim
         payment errors and to prevent fraud and abuse. Based on information obtained from this
         inspection and past studies, we encourage States to:

         Improve their provider remittance notice procedures.

         Some States believe that some remittance notices are diverted to third parties and never
         seen by the provider whose billing number was used to generate the claim. Current
         policies and procedures do not ensure that the provider will actually receive a remittance
         notice. Providers, who do receive them, may not review them for accuracy. The Florida
         Medicaid Agency’s effort to verify physician practice address(es) and clinic affiliations
         uncovered provider number misuse, fraud and abuse. Other States should consider a
         similar project not only to detect fraud and abuse but also to underscore provider
         responsibility to protect their billing number(s) and to review remittance notices.2

         Improve provider education.

         Every provider should understand that they will be held financially (and, in some cases,
         criminally and civilly) liable for any Medicaid program financial losses stemming from
         misuse of their provider.3

         Improve post payment audits.

         Selecting 10 claims for post payment review from a provider’s entire billing history may be
         a vulnerability. States need to be aware that a problem found more than one claim when
         using very small sample sizes may indicate a more extensive problem and not simply
         random error. States that find one or more problems in a small sample should expand
         their reviews and focus on the problem area(s).


         2
                For more information see Medical Billing Software and Processes Used to Prepare Claims.
         OEI-05-99-00100
         3
                   Ibid.

Post Payment Safeguards                              12                                        OEI-05-99-00072
         Use valid sampling techniques.

         States that claim barriers exist to their use of random sampling should discuss those
         barriers with HCFA and other States. Moreover, States might want to consider
         conducting a small probe sample before investing resources in a larger statistically valid
         sample that can be used to project overpayments.

         Ensure that some providers selected for post payment review are chosen at random.

         More emphasis should be placed on random selection and less focus on providers whose
         practice exceeds that of their peers. States should examine providers near their peer
         norm. They should also review providers with little or no billing to determine if they are
         still a legitimate Medicaid provider. Random selection can have a deterrent effect on
         fraudulent and abusive billing and enables States to identify problematic providers who
         have circumvented their program safeguards.

         Document educational contacts stemming from post payment audits.

         Problems found during claim reviews should be discussed directly with the provider either
         in person or over the telephone. These conversations should be memorialized in a
         certified letter to the provider and a copy maintained in a specific State file. This
         demonstrates that the provider was made aware of the problem(s) should additional action
         be required.4

         Improve their surveillance of providers found to have billing problems.

         States could conduct another audit to ensure that the provider corrected the unacceptable
         billing practices identified in the initial post payment audit. These follow up reviews/audits
         could be used to ensure that the provider has indeed changed his billing practices and has
         not found a way to circumvent Medicaid safeguards.

         Work with HCFA to establish uniform definitions for audits, edits, reviews, claim
         counts, rejects, etc.

         Clarifying these terms should allow the States and HCFA to compare and contrast efforts
         in safeguarding Medicaid.




         4
                 Additional information can be found in our report entitled, Carrier Fraud Units.
          OEI-05-94-00470.

Post Payment Safeguards                                 13                                          OEI-05-99-00072
         Improve the handling of fraud and abuse allegations.

         Their should be written procedures for handling suspected fraud and abuse identified by
         Medicaid employees and subcontractor employees. A single point within the State
         Medicaid program should be responsible for addressing fraud and abuse concerns raised
         by State Agency employees and their subcontractors.

         Develop training to help their employees and subcontractors identify potential fraud
         and abuse issues.

         Employees should be trained to recognize potential fraud and be able to differentiate fraud
         from abuse.5 Training should enable employees to determine if discrepancies on claims
         are material. Erroneous claim information that does not affect payment probably is not
         fraud or abuse. On the other hand, erroneous information that results in payment when
         the true information results in no, or a lower, payment may be significant. Improved
         training would help ensure proper disposition and handling of allegations and help ensure
         proper referral of cases for in depth investigation.

         Collect better data on payment error rates.

         Some States have used payment error rate data to identify and address problematic
         providers, poor policies and vulnerable procedures. Reliance on subcontractor measures
         of payment accuracy may be a vulnerability. States should periodically conduct their own
         measures of payment error. The States should also work with HCFA to establish criteria
         for classifying payment errors (i.e., medically unnecessary, service billed is greater/less
         than supported by the medical record, no documentation to support service, etc.).


AGENCY COMMENTS

We received comments on this report from HCFA. The HCFA believes that the opportunities for
improvement described in this report provide valuable information that will be shared with the
State Medicaid programs. The full text of HCFA’s comments can be found in Appendix A.




         5
                   Additional information about processing allegations of fraud and abuse can be found in our
report   entitled, Carrier Fraud Units. OEI-05-94-00470.

Post Payment Safeguards                                 14                                          OEI-05-99-00072
                             APPENDIX           A




                          HCFA Comments on this Report




Post Payment Safeguards                15                OEI-05-99-00072
Post Payment Safeguards   16   OEI-05-99-00072
Post Payment Safeguards   17   OEI-05-99-00072
Post Payment Safeguards   18   OEI-05-99-00072
